Audit Report




OIG-11-059
SAFETY AND SOUNDNESS: Failed Bank Review of Community
National Bank
February 24, 2011




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            February 24, 2011


            OIG-11-059

            MEMORANDUM FOR JOHN WALSH
                           ACTING COMPTROLLER OF THE CURRENCY

            FROM:                 Jeffrey Dye /s/
                                  Director, Banking Audits

            SUBJECT:              Failed Bank Review of Community National Bank, Lino Lakes,
                                  Minnesota

            This memorandum presents the results of our review of the failure of Community
            National Bank (CNB) located in Lino Lakes, Minnesota. The bank opened in 1980
            and operated two offices, a main office in Lino Lakes and a branch office in
            Vadnais Heights, Minnesota. In 2000, CNB acquired Lakeland National Bank of Lino
            Lakes, Minnesota, nearly doubling its asset size. CNB was a wholly-owned
            subsidiary of Community Investment Services, Inc., a one-bank holding company.
            The Office of the Comptroller of the Currency (OCC) closed CNB and appointed the
            Federal Deposit Insurance Corporation (FDIC) as receiver on December 17, 2010.
            As of September 30, 2010, CNB had approximately $31.6 million in total assets
            and $28.8 million in total deposits. FDIC estimated that the loss to the Deposit
            Insurance Fund is $3.7 million.

            Because the loss to the Deposit Insurance Fund is less than $200 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
            review of the failure of CNB that was limited to (1) ascertaining the grounds
            identified by OCC for appointing the FDIC as receiver and (2) determining whether
            any unusual circumstances exist that might warrant a more in-depth review of the
            loss. In performing our review we (1) examined documentation related to the
            appointment of FDIC as receiver, (2) reviewed OCC reports of examination, and
            (3) interviewed an OCC problem bank specialist.

            We conducted this performance audit in December 2010 and January 2011 in
            accordance with generally accepted government auditing standards. Those
            standards require that we plan and perform the audit to obtain sufficient,
            appropriate evidence to provide a reasonable basis for our findings and conclusions
            based on our audit objectives. We believe that the evidence obtained provides a
            reasonable basis for our findings and conclusions based on our audit objectives.
OIG-11-059
Page 2

Causes of Community National Bank’s Failure
OCC appointed FDIC receiver based on the following grounds: (1) the bank had
experienced substantial depletion of assets or earnings due to unsafe and unsound
practices and (2) the bank was in an unsafe and unsound condition to transact
business.

The primary causes of CNB’s failure were its prior management’s unsafe and
unsound practices which led to excessive concentrations in commercial real estate
(CRE) loans and critically deficient oversight and supervision. A majority of its
problem loans were originated before 2006 to real estate developers. Despite the
decline in the real estate market, the borrowers’ inability to sell the properties, and
the decline in property values, CNB lent these developers additional money for
interest payments on the problem loans. CNB also renewed several of these loans
without obtaining updated appraisals and without developing exit strategies.
Although CNB hired a new president and senior loan officer in late 2008, the
bank’s condition remained critically deficient due to the unsafe or unsound
practices of the prior board and management, which resulted in poor asset quality,
insufficient earnings and capital. The new board was unable to raise additional
capital, sell or merge CNB, and by October 2010, voluntarily agreed to FDIC being
appointed as receiver.

Conclusion
Based on our review of the causes of CNB’s failure and the grounds identified by
OCC for appointing FDIC as receiver, we determined that there were no unusual
circumstances surrounding the bank’s failure or the supervision exercised by OCC.
Accordingly, we have determined that a more in-depth review of the bank’s failure
by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated it agreed with our conclusion as to the causes of CNB’s
failure and that it had no concerns with our determination that an in-depth review
of the bank’s failure was not warranted. The response is provided as
Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or
Theresa Cameron, Audit Manager, at (202) 927-1011.

Attachments
         OIG-11-059

       Attachment 1
Management Response
                                                   OIG-11-059

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
